 

No. 20-781
In the Supreme Court of the United States
UNITED STATES OF AMERICA, ex rel.
CONCILIO DE SALUD INTEGRAL DE LOIZA, INC. (“CSILO”)
Petitioners,
v.
J.C. REMODELING, INC. AND JOSE GARCIA-SUAREZ

Respondents

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that the Petitioner’s Petition for Rehearing was served
to the Court via the Court’s electronic system on March 19t», 2021 and via the United
States Postal Service Express Mail on March 19%, 2021, was served to Counselor
David O. Martorani-Dale via the United States Postal Service Express Mail on March
19th, 2021 at his address United States Attorney’s Office, Civil Division, 350 Carlos
Chardon Ave., Torre Chardon, Suite 1201, Hato Rey, PR 00918, Counselor Carlos J.
Sagardia-Abreu via the United States Postal Service Express Mail on March 19th,
2021 at his postal address of 1853 Ave. Luis Vigoreaux PMB 678, Guaynabo, PR
00966 and Counselor Maria Celeste Colberg-Guerra via the United States Postal
Service Express Mail on March 19%, 2021 at her postal address of PO Box 16636, San

Juan, PR 00908-6636.

 

 
RESPECTFULLY SUBMITTED, in San Juan, Puerto Rico, this 19% of

March, 2021.

VICTOR M. RIVERA-RIOS
Counsel of Record

 

San Juan, PR 00909

Mobile: (787) 565-3477

Telephone: (787) 727-5710

Facsimile: (787) 268-1835

E-Mail: victorriverarios@rcrtrblaw.com

Counsel for Petitioner
